                                 September 28, 2000

                                 RICHARD J. STRASSER, JR.
                                 ACTING CHIEF FINANCIAL OFFICER
                                  AND EXECUTIVE VICE PRESIDENT

                                 PATRICK R. DONAHOE
                                 SENIOR VICE PRESIDENT, HUMAN RESOURCES

                                 SUBJECT:	 Miscellaneous Relocation Expense Payments
                                           (Report Number FT-AR-00-001)

                                 This report addresses the reasonableness of and controls
                                 over miscellaneous relocation expense payments made to
                                 Postal Service executives.1 This audit was requested by the
                                 Board of Governors, and is the second in a series of reports2
                                 examining relocation benefits for Postal Service executives.
                                 Our relocation work is continuing and future reports will
                                 address other aspects of relocation benefits for Postal
                                 Service executives.

Results in Brief	                Our audit disclosed that executives received miscellaneous
                                 relocation expense3 payments of $10,000 or $25,000 without
                                 having to document expenses incurred. In some instances
                                 officials were provided these payments while at the same
                                 time maintaining their former residence and staying in a
                                 hotel or renting an apartment at their new duty station.
                                 Through benchmarking, we determined that miscellaneous
                                 expense relocation payments made to Postal Service
                                 executives significantly exceeded amounts paid by private
                                 industry and other government agencies.


1
  Executives include Postal Career Executive Service II employees (officers) and Postal Career Executive Service I
employees (other executives).
2
  The first report in this series was published on May 2, 2000, “Relocation Benefits for Postal Service Officers”
(Report Number FR-FA-00-010(R)).
3
  Payments for other expenses such as equity losses on residences and other items were included in the
miscellaneous expense allowance account, but are not addressed in this report. Instead they will be addressed in
subsequent reports.
Miscellaneous Expense Allowances	                                                FT-AR-00-001




                             We were unable to identify a clear correlation between the
                             amounts paid to executives and the types of miscellaneous
                             expenses intended to be covered by this type of allowance.
                             Consequently, we believe that the payments of $10,000 for
                             executives and $25,000 for officers could be perceived as a
                             way to exceed the statutory limits on compensation, which
                             according to the Postal Service does not include relocation
                             benefits. We offer management four recommendations to
                             address the issues discussed in the report. Management
                             agreed with two recommendations to use benchmarking
                             information for determining the appropriate payments and to
                             update and publish criteria used for requesting payments.
                             However, management disagreed with our
                             recommendations concerning implementing controls to
                             ensure payments are not received until relocation has
                             commenced and to classify payments exceeding the
                             miscellaneous expense amount as relocation bonuses. We
                             view the disagreement on this recommendation as
                             unresolved and plan to pursue it through the audit resolution
                             process. Management's comments, in their entirety, are
                             included in the appendix.

Background 	                 The Postal Service allows miscellaneous relocation expense
                             payments to employees who change official duty stations.
                             The payments are intended to cover assorted expenses not
                             provided for elsewhere, such as:

                             -   Vehicle registration
                             -   New driver’s licenses
                             -   Transportation and/or care of pets
                             -   Nonrefundable utility fees
                             -   Rental cars and/or local transportation while in temporary
                                 quarters
                             -   Curtains, drapes, and carpeting
                             -   Forfeiture losses on nontransferable medical, dental, and
                                 food locker contracts




                                               2
Miscellaneous Expense Allowances                                                                     FT-AR-00-001




                                 Miscellaneous relocation expense payments are provided to
                                 employees as follows:
                                                                   4
                                                 Employee Level                               Benefit Amount

                                 Executive and Administrative Schedule                             $2,500
                                 Postal Career Executive Service I                                $10,000
                                 Postal Career Executive Service II                               $25,000

                                 The following table shows the number of employees who
                                 received miscellaneous relocation expense payments and
                                 the total amounts paid from fiscal year 1997 to May of fiscal
                                 year 2000.
                                                                                                          5
                                          Table 1. Miscellaneous Relocation Expense Payments

                                                                                                Total
                                         Allowance                Number of                  Allowance
                                          Amount                  Employees                     Paid

                                          $2,500                       3,002                 $8,075,000
                                          $10,000                        391                 $4,380,000
                                      $25,000 or more                     22                   $625,000
                                           Total                       3,415                            6
                                                                                            $13,080,000


Objective, Scope, and             Our audit objectives were to determine whether
Methodology                       miscellaneous relocation expense payments were
                                  reasonable and whether controls over the payments were
                                  adequate.

                                  To accomplish our objectives we:

                                  -   Reviewed Postal Service relocation policies and
                                      procedures.

                                  -   Used computer analysis to identify miscellaneous
                                      relocation expense payments of $10,000 or $25,000.




4
  Bargaining Unit employees with no immediate family receive $150, while Bargaining Unit employees with immediate
family receive $300. Further, if the Bargaining Unit employee chooses to itemize their expenses, they may receive up
to one week's pay with no immediate family or two weeks' pay with an immediate family.
5
  Sixty-one Bargaining Unit employees received relocation expense payments totaling $15,450.
6
 The total allowance paid exceeds allowance amounts multiplied by the number of employees because
269 employees received more than one payment for more than one move.




                                                         3
Miscellaneous Expense Allowances                                                                   FT-AR-00-001



                                 -   Reviewed supporting documents for 22 officers who
                                     received miscellaneous relocation expense payments of
                                     $25,000 from fiscal year 1997 to May of fiscal year
                                     2000.7

                                 -   Reviewed supporting documents for a judgmental
                                     sample of 72 other executives who received
                                     miscellaneous relocation expense payments of $10,000
                                     from fiscal year 1997 to May of fiscal year 2000.

                                 -   Reviewed Internal Revenue Service and Office of
                                     Personnel Management relocation guidelines.

                                 -   Interviewed appropriate Postal Service officials.

                                 -   Reviewed federal statutes related to relocation.

                                 -   Benchmarked in accordance with the American
                                     Productivity & Quality Center Code of Conduct that
                                     establishes criteria for benchmarking:

                                     !    Contacted 43 entities, including 35 Fortune 500
                                          companies and 8 nontaxpayer-funded government
                                          agencies. We received responses back from
                                          29 entities.

                                     !    Obtained benchmarking data for taxpayer-funded
                                          federal agencies from the Federal Employees
                                          Almanac 2000.

                                 We conducted the audit from May through September 2000
                                 in accordance with generally accepted government auditing
                                 standards and included such tests of internal controls as
                                 were considered necessary under the circumstances. We
                                 discussed our findings and conclusions with appropriate
                                 management officials and included their comments, where
                                 appropriate.

Documentation for                Our audit disclosed that executives received payments of
Payments                         $10,000 or $25,000 for miscellaneous relocation expenses
                                 without having to document expenses incurred, if any.

7
 The Inspector General is the only employee of the Office of Inspector General (OIG) eligible for the
$25,000 payment, but the Inspector General has not requested or been paid any relocation expenses, including
miscellaneous expenses.




                                                        4
Miscellaneous Expense Allowances                                                  FT-AR-00-001



                            Postal Service policy did not require executives to submit
                            supporting documentation for miscellaneous expenses, and
                            instead allowed a lump sum payment to executives to spend
                            at their discretion. Consequently, we could not determine
                            what expenses executives incurred, if any, to justify the
                            miscellaneous relocation expense payments to them.

                            In contrast to executives, Bargaining Unit employees were
                            required to submit documentation to receive reimbursement
                            for miscellaneous relocation expenses that exceeded the
                            authorized minimum allowance for miscellaneous expenses.
                            For example, a letter carrier without a family is authorized
                            miscellaneous expenses of $150, or he/she can submit
                            receipts for expenses to receive reimbursement for up to
                            one week's salary.

                            We understand that some expenses may vary based on the
                            income of the employee. However, expenses such as
                            registration fees, cost of transporting pets, and utility fees do
                            not typically vary in proportion to incomes of executives and
                            other employees. For executives to incur expenses of
                            $10,000 or $25,000, major expenditures for items such as
                            decks, window treatments, and fences would have to be
                            made. Because documentation is not required to justify the
                            miscellaneous expenses for executives, we were unable to
                            determine the validity of the authorized amount or the
                            rationale for paying executives miscellaneous expenses of
                            $10,000 or $25,000.

Change of Former            Postal Service employees can claim a miscellaneous
Residence                   relocation expense payment as soon as they change official
                            duty stations. In essence, executives can receive a
                            payment before incurring relocation expenses and can keep
                            the payment even if they do not incur relocation expenses.
                            For example, if an employee changed duty stations but did
                            not move his/her permanent residence (e.g. stayed in a
                            hotel or rented an apartment) the employee would still be
                            eligible to receive the full amount of the miscellaneous
                            relocation expense payments, regardless of the actual
                            expenses incurred. When the employee has not moved
                            from his/her former residence, actual miscellaneous
                            expenses incurred should typically be less. We identified at
                            least six executives who received miscellaneous relocation
                            expense payments when they reported to new duty stations.




                                              5
Miscellaneous Expense Allowances	                                                                   FT-AR-00-001




                                 These executives secured new residences, but maintained
                                 their former residences.8

Benchmarking 	                   We determined that miscellaneous relocation expense
                                 payments made to Postal Service executives significantly
                                 exceeded the amounts paid by private industry and other
                                 government agencies. Specifically, we compared
                                 miscellaneous relocation expense payments of the Postal
                                 Service to those paid by several judgmentally selected
                                 Fortune 500 companies. We also compared payments
                                 made to Postal Service executives to those paid by
                                 comparable government agencies, whose primary funding
                                 was not through federal tax dollars, and to other government
                                 agencies funded primarily through federal taxes.

                                 The following table shows that miscellaneous relocation
                                 expense allowances or similar allowances of other entities
                                 ranged from $0 to $5,000. Within the Postal Service, the
                                 allowance ranges from $150 to $25,000.




8
  Because the OIG followed Postal Service policy, one OIG executive in this category received a miscellaneous
relocation expense payment.




                                                        6
Miscellaneous Expense Allowances                                                                  FT-AR-00-001



                                                       Table 2. Benchmarking Results

                                                                Nontaxpayer-
                                                   Postal         funded                       Taxpayer-funded
                                                   Service      Government      Fortune 500      Government
                                                                 Agencies       Corporations               9
                                                                                                  Agencies

                                 Contacted             N/A               8               35              N/A
                                 Responded             N/A               6               23              N/A
                                 Types of
                                 Allowance:
                                     Percentage                          1                4              N/A
                                     of Salary
                                     Weeks of                            3                8              N/A
                                     Salary
                                     Flat                                2               11              N/A
                                     Allowance
                                 Range of             $150-         $350-$4,000      $0-$5,000       $350-$700
                                 Miscellaneous       $25,000
                                 Flat Allowance
                                 Range of           <1%-16%             3%            4%-7%              N/A
                                 Miscellaneous
                                 Allowance by %
                                 of Base Salary*
                                 Average               N/A              3%             5.3%              N/A
                                 Miscellaneous
                                 Allowance by %
                                 of Base Salary
                                 * The Postal Service does not use the percentage of base salary method to
                                 compute miscellaneous expense allowances. The “Range of Miscellaneous
                                 Allowance by % of Base Salary” depicted in Table 2 for the Postal Service was
                                 calculated by dividing the miscellaneous expense allowances by the maximum base
                                 salary for each employee level.

                                  Postal Service officers receive $25,000 and other
                                  executives receive $10,000 for miscellaneous relocation
                                  expenses. However, applying the Fortune 500 average
                                  allowance, from four Fortune 500 Corporations, of
                                  5.3 percent to the Postal Service’s current salary cap of
                                  $157,000 would result in an executive receiving a payment
                                  of $8,321. Applying the three percent used by the
                                  nontaxpayer-funded government agencies would result in
                                  an executive receiving a $4,710 payment.

                                  The Postal Service had previously performed comparisons
                                  with other federal agencies and private sector entities
                                  regarding miscellaneous expenses and other relocation
                                  benefits. Postal Service personnel did not have
                                  documentation that explained how the comparisons were
                                  considered in determining the miscellaneous relocation
                                  expense payments of $10,000 or $25,000 for executives.

9
    The source of this information was the Federal Employees Almanac 2000.




                                                         7
Miscellaneous Expense Allowances	                                                                       FT-AR-00-001



                                    Table 3 summarizes the Postal Service's comparison
                                    results and shows that its miscellaneous relocation expense
                                    payments significantly exceeded amounts paid by other
                                    federal agencies and private sector entities.

                                                 Table 3. Postal Service Comparison Results

                                    Postal Service versus Other Federal Agencies

                                                        Postal                         Agency
                                                        Service            A              B                C

                                                                                       2 Weeks'
                                    Miscellaneous   $150-                              Salary or
                                                                      2 Weeks'                         2 Weeks'
                                    Expense               10                           4 Weeks'
                                                  $25,000              Salary                           Salary
                                    Allowance                                           Salary

                                    Postal Service versus Private Sector Entities

                                                        Postal                        Company
                                                        Service            D              E                 F

                                    Miscellaneous
                                                         $150-         $3,000-                           $1,200-
                                    Expense                                              $3,000
                                                        $25,000        $5,000                            $2,500
                                    Allowance


Pay Cap 	                           Miscellaneous relocation expense payments of $10,000 or
                                    $25,000 for executives could be perceived as a way to
                                    exceed the statutory limits on compensation11 considering:

                                    !   Executives were not required to document expenses
                                        incurred.

                                    !   Miscellaneous relocation expense payments were made
                                        when executives maintained former residence and
                                        obtained housing at their new duty station.

                                    !   Miscellaneous relocation expense payments exceeded
                                        the amounts paid by private industry and other
                                        government agencies.

                                    !   The Postal Service Law Department has determined that
                                        relocation benefits are not considered compensation.


10
     The $25,000 for an officer at $157,000 represents about 8 weeks' salary.
11
   The total compensation of Postal Service employees is subject to the statutory cap in Title 5 of the U.S.C., which
at the time of the audit was $157,000.




                                                           8
Miscellaneous Expense Allowances                                                        FT-AR-00-001



                                  Because we were unable to identify a clear correlation
                                  between miscellaneous relocation expense payments and
                                  the actual expenses paid, we believe these payments are,
                                  in part, incentive payments rather than reimbursement for
                                  actual expenses. If any portion of these payments is in fact
                                  an incentive, the Postal Service should classify them as
                                  relocation bonuses subject to its compensation limits.

Recommendation                    We make the following recommendations.

                                  The Postal Service should:

                                  1. Use the benchmarking information in this report, as well
                                     as other relevant information, to determine the
                                     appropriate miscellaneous relocation expense payments
                                     for employees who relocate:

                                      a. Their former family residence.

                                      b. Their official duty station, and not their primary
                                         residence.

Management’s                      Management concurred with this recommendation and
Comments                          stated that by December 31, 2000, the vice president,
                                  Finance, Controller, in coordination with the vice president,
                                  Employee Resource Management, would use
                                  benchmarking and other relevant information to update the
                                  appropriate level of the miscellaneous relocation allowance.

Evaluation of                     Management’s comments were responsive to our
Management’s                      recommendation; however, after the release of the draft
Comments                          report, Postal Service management presented updated
                                  miscellaneous relocation expense benchmarking data to the
                                  Compensation Committee of the Board of Governors.12
                                  Table 4 summarizes the Postal Service's most recent
                                  benchmarking results.




12
     Presented at the July 10, 2000, Compensation Committee meeting.




                                                        9
Miscellaneous Expense Allowances                                                                    FT-AR-00-001




                                                               Table 4.
                                       Officer Miscellaneous Relocation Expense Benchmarking

                                 Postal Service versus Other Federal Agencies
                                                                            Quasi-Governmental
                                                   Postal      Federal
                                                                                  Agencies
                                                  Service   Government
                                                                               G            H
                                                              2 Weeks'      10 % of        Flat
                                 Miscellaneous                  Salary       Salary      Amount
                                 Expense
                                 Allowance        $25,000      $5,435       $16,000      $3,000

                                 Postal Service versus Private Sector Entities
                                                   Postal            Company
                                                  Service
                                                                  J               K
                                                             7% of Salary Up to 1 Month
                                 Miscellaneous                                of Salary-
                                 Expense
                                 Allowance                            13               14
                                                  $25,000     $40,530        $133,000

                                 The miscellaneous relocation expense benchmarking
                                 information for federal agencies presented to the
                                 Compensation Committee was comparable to the
                                 information that we obtained in our benchmarking work.
                                 (See Table 2.) The only major difference was that one
                                 quasi-government agency used 10 percent of base salary
                                 when determining its miscellaneous relocation expense
                                 allowance. Still, the miscellaneous relocation expense
                                 amount paid by the Postal Service exceeded amounts paid
                                 by the government agencies surveyed.

                                 However, the salary information used for the private sector
                                 comparison in Table 4 was not comparable to the
                                 information we obtained in our benchmarking. The salaries
                                 used for companies J and K were 3.5 to 10 times higher
                                 than the maximum salary that a Postal Service executive
                                 can earn. Limiting the salary of companies J and K to the
                                 current Postal Service maximum salary would reduce the
                                 miscellaneous relocation expense allowance to $10,990 and
                                 $13,083 respectively.

13
   The amount shown in table 4 is based on an average salary of $579,000 for the five top executives of company J.
The salary used in this example is about 3.5 times the maximum salary ($157,000) that can be earned by a Postal
Service executive.
14
   The amount shown in table 4 is based on an average salary of $1,600,000 for the five top executives of
company K. The salary used in this example is salary is about 10 times the maximum salary ($157,000) that can be
earned by a Postal Service executive.




                                                        10
Miscellaneous Expense Allowances                                                  FT-AR-00-001




                            We believe that this benchmarking information, when placed
                            in the correct context, confirms our conclusion that
                            miscellaneous relocation expense payments made to Postal
                            Service executives significantly exceeded the amounts paid
                            by private industry and other government agencies.

Recommendation              2. Implement controls to ensure that employees do not
                               receive miscellaneous relocation expense payments
                               until relocation of their residence has commenced.

Management’s                Management disagreed with our recommendation that
Comments                    employees be paid miscellaneous relocation expense
                            payments after relocation of the residence has begun.
                            Management stated that the miscellaneous allowance is
                            paid when authorized by the approving official after the
                            effective date of the transfer to eliminate the uncertainty of
                            when a payment is made to the employee. Further, many
                            unspecified expenses are incurred or required prior to the
                            time when the new residence is ready.

Evaluation of               We disagree with management’s assertion that the
Management’s                miscellaneous relocation expense payments must be paid
Comments                    prior to the employee relocating their residence to eliminate
                            the uncertainty of when a payment is made to the
                            employee. The Postal Service pays other relocation
                            benefits (e.g. real estate settlements, temporary quarters,
                            and house-hunting trips) after the employee incurs the
                            expense. The intent of our recommendation was to ensure
                            that miscellaneous expense payments were not made until
                            actual relocation expenses (e.g. temporary quarters, house-
                            hunting trips, moving or storing household effects) were
                            incurred. Once qualified relocation expenses are incurred,
                            the employee could apply for and be paid the miscellaneous
                            relocation expense payment.

                            We view the disagreement on this recommendation as
                            unresolved and plan to pursue it through the audit resolution
                            process.

Recommendation              3. Classify any amounts paid to executives that exceed the
                               miscellaneous expense amount determined in
                               recommendation 1 as relocation bonuses.




                                              11
Miscellaneous Expense Allowances	                                               FT-AR-00-001



Management’s 	               Management disagreed with our recommendation to classify
Comments 	                   miscellaneous expense benefits in excess of the
                             miscellaneous expense amount determined in
                             recommendation 1 as a relocation bonus. Management
                             stated that the amounts paid by the Postal Service are
                             appropriate, and that the amounts given do not exceed
                             miscellaneous expenses. However, management indicated
                             it would review the miscellaneous expense allowance and, if
                             necessary, adjust the program.

Evaluation of                Although management disagreed with our recommendation,
Management’s                 the actions planned to modify the miscellaneous relocation
Comments                     expense allowance, based on benchmarking by December
                             31, 2000, are responsive to our recommendation. We will
                             continue to monitor this area to ensure that the revised
                             miscellaneous relocation expense allowance amounts are
                             appropriate, based on benchmarking and other relevant
                             information.

Recommendation               4. Update and publish specific criteria used to request
                                miscellaneous relocation expense payments.

Management’s 	               Management concurred with this recommendation and
Comments 	                   stated that by early 2001 by the vice president, Finance,
                             Controller will update the relocation handbook to include the
                             general kinds of expenses that the miscellaneous expense
                             allowance is intended to cover.

Evaluation of                Management’s comments were responsive to our

Management’s                 recommendation. 

Comments 





                                              12
Miscellaneous Expense Allowances	                                            FT-AR-00-001




                             We appreciated the cooperation and courtesies provided by
                             your staff during the audit. If you have any questions,
                             please contact John Seeba, acting deputy assistant
                             inspector general for Business Operations, or me at (703)
                             248-2300.



                             Debra S. Ritt
                             Acting Assistant Inspector General
                              for Business Operations

                             cc: 	 William J. Henderson
                                   John M. Nolan
                                   Mary Anne Gibbons
                                   Deborah K. Willhite
                                   William T. Johnstone
                                   John R. Gunnels




                                              13
Miscellaneous Expense Allowances                     FT-AR-00-001



                   APPENDIX. MANAGEMENT'S COMMENTS




                                   14
Miscellaneous Expense Allowances        FT-AR-00-001




                                   15
Miscellaneous Expense Allowances        FT-AR-00-001




                                   16
